ATTACHMENT C

Case 5:17-cv-00079-JLH Document 40 Filed 04/09/18 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
CHARLES E. HAMNER,
ADC #143063
V.

PLAINTIFF
CASE NO. 5:17-CV-79-JLH-BD

DANNY BURLS, et al.

DEFENDANTS
RECOMMENDED DISPOSITION

I.

Procedure for Filing Objections
This Recommended Disposition (“Recommendation”) has been sent to Judge J.

Leon Holmes. Any party may file written objections to this Recommendation. Objections
must be specific and must include the factual or legal basis for your objection. To be
considered, objections must be received in the office of the Court Clerk within 14 days of
this Recommendation.
If no objections are filed, Judge Holmes can adopt this Recommendation without
independently reviewing the record. By not objecting, parties risk waiving the right to
appeal questions of fact.
II.

Discussion
A. Background
Charles E. Hamner, an Arkansas Department of Correction (“ADC”) inmate, filed

this lawsuit under 42 U.S.C. § 1983, without the help of a lawyer. (Docket entry #2) Mr.
Hamner claimed that Defendants Burls, Jenkins, Williams, Outlaw, and Evans retaliated
against him by holding him in administrative segregation for 203 days before transferring

Case 5:17-cv-00079-JLH Document 40 Filed 04/09/18 Page 2 of 5

him to another ADC unit. The Court dismissed, with prejudice, Mr. Hamner’s claim that
the Defendants violated his due process rights and his claim that Defendants violated
ADC policy and procedure. (#6)
Defendants moved for summary judgment based on Mr. Hamner’s failure to fully
exhaust his administrative remedies before filing this lawsuit. (#26) After this Court
recommended that the Defendants’ motion be granted (#32), Mr. Hamner filed a motion
to amend his complaint. (#33) Judge Holmes granted the motion to amend and declined
to adopt this Court’s recommendation. (#35)
Mr. Hamner has now filed his amended complaint (#36), and the Defendants have
moved to dismiss. (#37) Mr. Hamner has responded to the motion, and it is ripe for
review. (#39)
B. Due Process and Violation of ADC Policy and Procedure
In his amended complaint, Mr. Hamner provides additional information to support
his due process claim. He again complains that he was not afforded a probable cause
hearing within seventy-two hours of being placed in administrative segregation and that
he was not provided meaningful reviews while he was housed in segregation for nearly
seven months.
In determining whether prison officials denied a prisoner due process in assigning
him to administrative segregation, courts consider two factors. The first question is
whether the prisoner-plaintiff has demonstrated that he was deprived of life, liberty, or
property in his assignment to administrative segregation. Williams v. Hobbs, 662 F.3d
994, 1000 (8th Cir. 2011) (quoting Phillips v. Norris, 320 F.3d 844, 846 (8th Cir. 2003)).
2

Case 5:17-cv-00079-JLH Document 40 Filed 04/09/18 Page 3 of 5

As explained in a previous order, “[t]o prevail on such a claim based on prison housing,
an inmate must show that the segregation created an ‘atypical and significant hardship on
him in relation to the ordinary incidents of prison life’ to demonstrate that his liberty
interest was curtailed.” Rahman X v. Morgan, 300 F.3d 970, 973 (8th Cir. 2002)
(alteration omitted) (citing Sandin v. Conner, 515 U.S. 472, 484 (1995). Only if a liberty
interest is implicated does the Court determine the process necessary to protect that
interest. Clark v. Brewer, 776 f.2d 226, 232 (8th Cir. 1985).
Here, the Court dismissed Mr. Hamner’s due process claim, with prejudice,
because his allegations did not demonstrate that he was deprived of a protected liberty
interest. Mr. Hamner’s seven-month assignment to administrative segregation was not
long enough to trigger due process protection. The Court of Appeals for the Eighth
Circuit has found no due process violation in cases where inmates were held in
segregation for periods longer than the seven-month period Mr. Hamner alleges. See Orr
v. Larkins, 610 F.3d 1032, 1034 (8th Cir. 2010) (inmate was not deprived of liberty
interest during nine months in administrative segregation); Rahman X v. Morgan, 300
F.3d 970, 974 (8th Cir. 2002) (inmate’s placement in administrative segregation for
twenty-six months without a disciplinary charge or conviction did not “demonstrate that
his liberty interest was curtailed”); and Furlough v. Brandon, 2009 WL 4898418 (E.D.
Ark. Dec. 15, 2009) (inmate plaintiff failed to state a due process claim after being
assigned to administrative segregation for nearly nine months).
Even assuming that the additional information provided in Mr. Hamner’s amended
complaint is accurate, under current case law, Mr. Hamner did not suffer an “atypical and
3

Case 5:17-cv-00079-JLH Document 40 Filed 04/09/18 Page 4 of 5

significant hardship” during his time in administrative segregation. There is no basis for
the Court to reconsider its recommendation that Mr. Hamner’s claims be dismissed.
Likewise, Mr. Hamner has not provided any additional information that would
lead the Court to reconsider its recommendation that Judge Holmes dismiss his claim that
Defendants violated ADC policy and procedure. The failure to follow prison rules is not
conduct that rises to the level of a constitutional deprivation.
C. Retaliation
The Court previously determined that Mr. Hamner had failed to exhaust his
administrative remedies regarding retaliation claims against the Defendants. In his
amended complaint, Mr. Hamner has offered no evidence showing that he did exhaust a
retaliation claim. The Court must again recommend, therefore, that Mr. Hamner’s
retaliation claim be dismissed, without prejudice, based on his failure to exhaust
administrative remedies before filing this lawsuit. Johnson v. Jones, 340 F.3d 624, 627
(8th Cir. 2003) (“If exhaustion was not completed at the time of filing, dismissal is
mandatory”).
D. Deliberate Indifference to Medical Needs
In his amended complaint, Mr. Hamner complains that his “‘pleas’ for
psychological treatment were ‘ignored’” and that he “was deprived of his . . . medication
as prescribed by his healthcare provider while he was housed in administrative
segregation.” (#36 at pp.4-5) Mr. Hamner does not allege that any of the Defendants in
this case were aware of his need for mental health treatment or medication. Furthermore,
he fails to allege that any of the Defendants ignored or acted with deliberate indifference
4

Case 5:17-cv-00079-JLH Document 40 Filed 04/09/18 Page 5 of 5

to such needs. His failure to include these critical allegations is fatal to his claim. Gordon
ex rel. Gordon v. Frank, 454 F.3d 858, 862 (8th Cir. 2006) (“[t]he subjective inquiry
must show a mental state akin to criminal recklessness: disregarding a known risk to the
inmate’s health”). 1
III.

Conclusion
The Court recommends that the Defendants’ motion to dismiss (#37) be

GRANTED. The Court should not reconsider its dismissal of Mr. Hamner’s due process
claim, or his claim that Defendants violated ADC policy and procedure. Mr. Hamner’s
retaliation claims should be DISMISSED, without prejudice, based on his failure to
exhaust his administrative remedies. Likewise, his claim that he was denied adequate
medical treatment during his assignment to administrative segregation should also be
DISMISSED, without prejudice.
DATED this 9th day of April, 2018.

____________________________________
UNITED STATES MAGISTRATE JUDGE

1

In their motion to dismiss, Defendants describe Mr. Hamner’s claim that they imposed
cruel and unusual punishment by placing him in administrative segregation as “a repackaging of Plaintiff’s original due process claims” and seek dismissal on that basis, as
well. (#38 at p.4) Because the Court has determined that Mr. Hamner’s deliberateindifference claim under the Eighth Amendment fails, however, it is unnecessary for the
Court to further analyze this claim.
5

